         OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Audit Report

       EPA Grants Supported
       Restoring the Chesapeake Bay
       Report No. 2006-P-00032   


       September 6, 2006     

Report Contributors:	              Randy Holthaus
                                   Jennifer Hutkoff
                                   Michael Rickey
                                   Matthew Simber




Cover photo:	   This photo shows part of an EPA-funded best management practice at a farm
                in Lebanon County, Pennsylvania. Pictured is a pipeline that distributes storm
                water flow through the pipe and on to splash pads after removal of manure
                from a cow feeding pen. Previously, the manure was not contained and had
                flowed downhill during rain storms. (Source: Office of Inspector General)
                       U.S. Environmental Protection Agency                                           2006-P-00032 

                                                                                                  September 6, 2006

                       Office of Inspector General


                       At a Glance

                                                                          Catalyst for Improving the Environment


Why We Did This Review           EPA Grants Supported Restoring the
Chesapeake Bay partners and      Chesapeake Bay
the media have expressed
concerns on the slow progress     What We Found
of Bay cleanup. The U.S.
Environmental Protection         EPA awarded assistance agreements (grants) that contributed toward meeting the
Agency (EPA) recently stated     goals of the Clean Water Act and the Chesapeake 2000 Agreement. These grants
that key water quality and       funded activities designed primarily to: reduce the nutrients and sediment entering
wildlife habitat restoration     the Bay and its tributaries, monitor ongoing efforts to restore Bay water quality,
goals of the Chesapeake 2000     and model (estimate) the results of Bay implementation strategies.
Agreement will not be met by
2010 as planned. We              In fiscal years 2003, 2004, and 2005, Congress appropriated $23 million each
conducted this audit to answer   year for EPA’s Chesapeake Bay Program. In each of those years, EPA awarded
the question: Has EPA            about $8 million for State implementation grants and $7 million for technical and
effectively targeted funds       other grants for specific projects. EPA used the remaining $8 million to fund
toward grant projects that       EPA personnel and office management, interagency agreements, and
should maximize                  congressional earmarks.
environmental benefit in the
Chesapeake Bay?                  EPA funded State restoration programs that designed and installed best
                                 management practices, monitored the progress and results of ongoing projects,
Background                       and informed EPA’s partners and the public of their impacts on Bay water quality.
                                 EPA also funded technical project grants to: collect and track data on
The Chesapeake Bay and its       implementation efforts; model (estimate) future pollution levels and reductions
tributaries have been on         gained from activities; monitor water quality and pollution levels; restore and
EPA’s impaired waters list       protect fish and other living organisms; and educate the public and stakeholders
since 1998. The Chesapeake       about Bay restoration progress, obstacles, and strategies. These efforts
2000 Agreement established       contributed to EPA’s overall Bay restoration program. EPA estimated, based on
the goals and commitments to     computer modeling, that as of March 2006 the program partners had achieved
restore and protect the          37 percent of the nitrogen reduction goal, 53 percent of the phosphorus reduction
Chesapeake Bay ecosystem         goal, and 47 percent of the sediment reduction goal.
and its living resources.
                                 EPA’s Chesapeake Bay Program Office responded to the draft report and
For further information,         concurred with our conclusion. The report does not contain recommendations.
contact our Office of
Congressional and Public
Liaison at (202) 566-2391.

To view the full report,
click on the following link:
www.epa.gov/oig/reports/2006/
20060906-2006-P-00032.pdf
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                          OFFICE OF 

                                                                                     INSPECTOR GENERAL





                                         September 6, 2006

MEMORANDUM

SUBJECT:               EPA Grants Supported Restoring the Chesapeake Bay
                       Report No. 2006-P-00032

TO:                    Donald S. Welsh
                       Regional Administrator, EPA Region 3

                       Rebecca W. Hanmer
                       Director, Chesapeake Bay Program Office


This is our report on assistance agreements awarded by the U.S. Environmental Protection
Agency’s Chesapeake Bay Program Office conducted by the Office of Inspector General (OIG).
This report does not contain findings or recommendations. The estimated cost of this report –
calculated by multiplying the project’s staff days by the applicable daily full cost billing rates in
effect at the time – is $187,667.

Action Required

Because this report contains no recommendations, you are not required to respond to this report.
We have no objections to the further release of this report to the public. This report will be
available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact me at 202-566-0847
or roderick.bill@epa.gov, or Janet Kasper at 312-886-3059 or kasper.janet@epa.gov.


                                                       Sincerely,




                                                       Bill A. Roderick
                                                       Acting Inspector General
                               EPA Grants Supported Restoring the Chesapeake Bay




                                        Table of Contents 

Purpose of Audit ..................................................................................................................             1           


Background .......................................................................................................................              1 


EPA Assistance Agreements Supported Restoring the Bay ...........................................                                               2           


             State Implementation Grants Focused on Reducing
             Nutrients and Sediment Entering the Bay ...............................................................                            3


             Project Grants Measured and Reported Results.....................................................                                  5


Conclusion            .......................................................................................................................   7       


Status of Recommendations and Potential Monetary Benefits.......................................                                                8           




Appendices
     A       Scope and Methodology.......................................................................................                           9

     B       Detailed Logic Model on Chesapeake Bay Program
             Use of Assistance Agreements............................................................................                           10

     C       Agency Response .................................................................................................                  11

     D       Distribution ............................................................................................................          12




                                                                         i
Purpose of Audit

The Chesapeake 2000 Agreement, established by the Chesapeake Bay partners to set goals for
restoring the Bay’s ecosystem, stated that while the individual and collective accomplishments of
the Bay partners’ efforts have been significant, greater effort will be required to address the
enormous challenges that lie ahead. There have also been numerous media reports recently on
the slow progress of the Bay cleanup. In 2000, the U.S. Environmental Protection Agency
(EPA), along with five other signatory partners, had committed to restoring the Bay’s waters by
2010. However, EPA recently stated in its draft Strategic Plan for 2006-2011 that key water
quality and wildlife habitat restoration goals for the Bay will not be met by 2010 as planned.

We conducted this audit to answer the following question: Has EPA effectively targeted funds
toward grant projects that should maximize environmental benefit in the Chesapeake Bay? To
answer this question, we sought to determine whether EPA funded grant projects for the Bay that
met the goals of the Clean Water Act and the Chesapeake 2000 Agreement. We defined
“projects that should maximize environmental benefits” as those projects that contribute toward
fulfilling the goals of the Clean Water Act and the Chesapeake 2000 Agreement. The Clean
Water Act directs EPA’s Administrator to maintain a Chesapeake Bay Program Office and for
that Office to assist Bay partners in developing and implementing action plans to carry out the
Chesapeake Bay Agreement. EPA is required to fund project grants to nonprofit organizations,
State and local governments, colleges, universities, and interstate agencies to help meet the
Chesapeake 2000 Agreement. EPA and the partners, by signing the Agreement, established a
comprehensive set of goals to restore the Bay.

We did not assess State decisions regarding the type or location of best management practices
they implemented. We also did not review grant proposals that EPA chose not to fund. Finally,
we did not assess the adequacy of the Chesapeake 2000 Agreement. Additional details on the
scope and methodology for our review are in Appendix A.

Background

The Chesapeake Bay is North America’s largest and most biologically diverse estuary. The
watershed area is home to more than 16 million people and 3,600 species of plants, fish, and
animals. The watershed covers 64,000 square miles and includes parts of 6 States – Delaware,
Maryland, New York, Pennsylvania, Virginia, and West Virginia – and all of the District of
Columbia. The Chesapeake Bay watershed includes thousands of miles of waterways feeding
into the Bay. This main Chesapeake Bay waterway is approximately 189 miles long and runs
from the Susquehanna River in the north to the Atlantic Ocean in the south. Contributing
waterways are referred to as “tributaries.”

The Chesapeake Bay and its tributaries have been on EPA’s impaired waters list since 1998.
Nutrients and sediment are the Bay’s two primary pollutants:

   •	 Nutrients: The primary sources of nutrients (nitrogen and phosphorus) are agricultural,
      urban, and suburban runoff; sewage treatment facilities; and the deposition of air
      pollution from numerous sources, such as power plants. Excess amounts of these two


                                               1

       nutrients cause conditions (“algal blooms”) that greatly reduce the amount of oxygen in
       the water that fish, crabs, and other aquatic organisms need to live.

   •	 Sediment: Sediment is loose particles of clay, silt, and sand that suspend in a body of
      water and eventually settle to the bottom. In the Chesapeake Bay, sediment diminishes
      water quality by preventing light from penetrating to the leaves and stems of underwater
      grass and other vegetation.

The Chesapeake 2000 Agreement established the goals and commitments to restore and protect
the Chesapeake Bay ecosystem and its living resources. The Chesapeake Bay partnership began
in 1983 and was formalized through a series of agreements, the most recent in 2000. The
signatories of the 2000 Agreement were EPA, Maryland, Pennsylvania, Virginia, the District of
Columbia, and the Chesapeake Bay Commission. Collectively, these signatories are known as
the Chesapeake Executive Council. The ultimate goal of the Agreement is to improve the Bay
and its tributaries’ water quality and have them all removed from the impaired waters list by
2010. Because restoration needs differed from State to State, the signatory States each
developed their own tributary strategy to meet their Chesapeake 2000 Agreement water quality
restoration commitments. Tributary strategies are river-specific cleanup strategies. West
Virginia, New York, and Delaware are neighbors of the signatory States, and although they did
not sign the Bay Agreement they have also made a commitment to participate in improving Bay
water quality.

EPA administers Chesapeake Bay Program funding under Section 117 of the Clean Water Act.
Section 117 directs EPA to maintain the Chesapeake Bay Program Office and provide support to
the Chesapeake Executive Council and Chesapeake 2000 Agreement signatory partners. Section
117(b) lists the types of projects and activities EPA is authorized to fund. Under Section 117(d),
EPA awards technical assistance and other assistance agreements to nonprofit organizations,
State and local governments, colleges, universities, and interstate agencies for specific projects to
implement the goals of the Chesapeake 2000 Agreement. Under Section 117(e), EPA awards
assistance agreements to States for overall implementation and monitoring.

The EPA Office of Inspector General has initiated a series of studies to examine challenges and
opportunities affecting the ability to achieve and sustain water quality goals in the Chesapeake
Bay. In this series, we are focusing on principal contributors of point and nonpoint source
contamination. This audit of Bay grants complements this series.

EPA Assistance Agreements Supported Restoring the Bay

In fiscal years 2003, 2004, and 2005, Congress appropriated $23 million each year for EPA’s
Chesapeake Bay Program. In each of those years, EPA awarded about $8 million for State
implementation grants and $7 million for technical and other assistance agreements (project
grants). EPA used the remaining $8 million to fund EPA personnel and office management,
interagency agreements, and congressional earmarks. Details on what we found regarding the
implementation grants and specific project grants follow.




                                                 2

EPA awarded assistance agreements (grants) that contributed toward meeting the goals of the
Clean Water Act and the Chesapeake 2000 Agreement. These grants funded activities designed
primarily to: reduce the nutrients and sediment entering the Bay and its tributaries, monitor
ongoing efforts to restore Bay water quality, model (estimate) the results of Bay implementation
strategies, and accomplish the goals of the Chesapeake 2000 Agreement. The funded activities
included the States’ restoration programs, which designed and installed best management
practices, monitored the progress and results of ongoing projects, and informed EPA’s partners
and the public of their impacts on Bay water quality. These major areas of concentration have
contributed to EPA’s efforts in restoring the Chesapeake Bay.

EPA estimated, based upon computer modeling, that as of March 2006 the program partners
have achieved 37 percent of the nitrogen reduction goal, 53 percent of the phosphorus reduction
goal, and 47 percent of the sediment reduction goal.

Figure 1 below is a brief representation (logic model) of how funded grant activities contribute to
restoring the Bay. For a more detailed picture, see Detailed Logic Model on Chesapeake Bay
Program Use of Assistance Agreements – which we prepared – in Appendix B.


Figure 1: Logic Model on Chesapeake Bay Program Assistance Agreement Use

 Activities            Outputs                     Short-Term Outcomes          Long-Term Outcomes

 Implementation        Nutrient reduction          Site-specific load           Bay waters, habitats, and
 grants                strategies designed and     reductions                   living resources restored
                       installed

 Monitoring            Ongoing efforts             Known water quality          Bay waters removed from
                       measured                    results and status           Impaired List

 Modeling              Estimates of results        Improved implementation      Strategies achieve water
                                                   strategies                   quality restoration

 Outreach              Publications on Bay         Increased public awareness   Bay partners and the public
                       health and progress         of how daily actions         continue to maintain water
                                                   impact the Bay               quality
Source: EPA Office of Inspector General analysis



State Implementation Grants Focused on Reducing Nutrients and Sediment
Entering the Bay

During 2005, EPA provided $2.3 million each to Maryland, Pennsylvania, and Virginia in
overall implementation grants for the Chesapeake Bay Program. States were required to match
that amount. State workplans described the activities the States planned to conduct to achieve
their State tributary strategies. Each of the tributary strategies provided long-term goals for
nutrient and sediment reductions to restore the Bay. Further, each State spent significantly more
than the Federal funding they received for restoring the Bay. For example, according to
Maryland officials, the State spent $292 million in 2005 on restoring the Bay; of that amount,


                                                       3

10 percent came from the Federal Government (EPA as well as other Federal agencies). Details
on activities undertaken by the three States follow.

        Maryland: The State’s 2005 implementation grant addressed four major objectives:
        water quality protection and restoration, vital habitat protection and restoration,
        stewardship and community engagement, and governance. Under the State’s work plan,
        staff are expected to carry out many tasks, including:

                 •	 Provide grants to Maryland farmers to install best management practices.1
                 •	 Manage nutrient removal projects from specific facilities.
                 •	 Compile discharge monitoring data from 310 point sources and 10 industrial
                    wastewater treatment facilities.
                 •	 Analyze and estimate nutrient loads to show the State’s progress in meeting
                    nutrient reduction goals.
                 •	 Analyze and assess trends in water quality, habitat, and aquatic species relative
                    to nutrient load changes.
                 •	 Educate farmers so they can become certified to write their own nutrient
                    management plans.
                 •	 Train 150 producers in 14 counties on how to calibrate their equipment and take
                    manure and soil samples.

        All of the above activities contributed to Maryland’s tributary strategy by either focusing
        on reducing nutrients and sediments entering the Bay or monitoring ongoing efforts to
        assess impact and effectiveness. Maryland's 2010 tributary strategy goals were to reduce
        nitrogen and phosphorus by 69 percent from 1985 levels and sediment by 43 percent.

        Pennsylvania: The State’s 2005 State implementation grant included 10 objectives.
        Under these 10 objectives, Pennsylvania proposed to:

            •	    Complete 132 total maximum daily load studies.
            •	    Submit data to EPA on point and nonpoint source reductions.
            •	    Conduct nutrient monitoring.
            •	    Provide training to technical field staff.
            •	    Educate various audiences, including farmers and local government officials.
            •	    Install 300 best management practices.
            •	    Complete 150 nutrient management plans.
            •	    Prepare or revise 38 County Implementation Plans.
            •	    Install 17 miles of stream bank fencing.
            •	    Conduct two Watershed Academy training courses.

        The workplan also included funding for technicians, engineers, and engineering assistants
        in the conservation districts. The technicians help landowners develop nutrient
        management plans and install best management practices. The engineering specialists

1
 EPA’s Chesapeake Bay Program Office uses the term “best management practices” to describe practices used by
all sectors to reduce point and nonpoint source pollution.


                                                      4

       and assistants provide technical assistance to the conservation districts for design and
       analysis of engineering work related to installing best management practices. All of the
       State implementation grant activities are targeted toward Pennsylvania’s Tributary
       Strategy to meet the 2010 Goals of the Chesapeake 2000 Agreement. Pennsylvania’s
       Tributary Strategy goals were to reduce nitrogen by 40 percent, phosphorus by
       44 percent, and sediment by 20 percent from 1985 levels.

       Virginia: The State’s 2005 State implementation grant addressed three major objectives:
       water quality protection and restoration, sound land use and stewardship, and community
       engagement. Under the workplan, staff are to:

           •   Create and revise nutrient management plans that affect 52,000 acres of land.
           •   Review 150 waste permits.
           •   Take and test 1,400 soil samples.
           •   Make over 500 inspections and field visits to farms, tidal areas, and other sites.
           •   Engage 150 local governments and key stakeholders in tributary strategies.
           •   Participate in a multitude of roundtable and educational events.

       All projects focused on reducing nonpoint source pollution in the Chesapeake Bay and
       implementing the Chesapeake 2000 Agreement and Virginia tributary strategies.
       Virginia’s 2010 tributary strategy goals were to decrease the State’s 1985 baseline
       nitrogen load level by 47 percent, lessen its phosphorus load level by 57 percent, and
       reduce its sediment amount by 44 percent.

EPA has two primary means to ensure results and outcomes from State implementation grants –
review State-submitted data, and review the States’ semi-annual progress reports. States submit
data to EPA from monitoring and implementation efforts. Monitoring efforts produce data on
water quality and nutrient and sediment levels, enabling EPA to track progress, estimate future
pollution levels, and assess the overall condition of the Bay. Implementation efforts produce
data – such as the location of and type of best management practices installed – that EPA can use
to estimate future pollution levels. States also submit semi-annual progress reports to EPA
detailing accomplishments under the grants. The States provide information specific to each
workplan objective, including: a comparison of actual versus anticipated accomplishments,
reasons why anticipated outcomes were exceeded or not met, and information on the rate of
expenditure under the grant versus progress. States submitted the required data to EPA timely,
and progress reports adequately detailed State progress under the implementation grants.

Project Grants Measured and Reported Results

The remainder of EPA’s Bay grant funding is awarded for an assortment of specific projects.
In fiscal years 2003, 2004, and 2005, EPA awarded a total of 110 grants for Bay projects for
$20.9 million. We reviewed 23 of these grants, totaling nearly $4.7 million, as categorized in
Table 1:


Table 1: Grant Project Categories



                                                 5

                                                              Number of          Amount of
                            Category                       Grants Reviewed     Funds Awarded
 Modeling                                                          5             $ 1,187,860
 Outreach                                                          4               1,261,834
 Chesapeake Bay Executive Council Support                          2                 879,176
 Monitoring                                                        3                 833,531
 New Practices Research                                            4                 255,394
 Protecting and Restoring Fish and Living Organisms                4                 221,500
 Coordination                                                      1                  60,000
     Total Reviewed                                               23             $ 4,699,295
Source: EPA Office of Inspector General analysis

The Maryland Assistant Secretary for Bay Programs, who is also a member of the Chesapeake
Bay Budget Steering Committee, told us that modeling and monitoring activities in particular are
critical. Modeling uses mathematical representations of the real world to estimate the effects of
complex and varying environmental events and conditions. Monitoring is the collection of
comprehensive data for a current description of the Bay. Over time, monitoring data may reveal
trends regarding Bay water quality. Maryland’s Assistant Secretary said one should not
implement best management practices until one knows how potential areas can affect the Bay
(by modeling) and also know if, ultimately, water quality is improving (by monitoring).
Additional information on what we found for each category follows.

        Modeling: States used the modeling information to set priorities and strategies for
        restoring the Bay. For example, EPA awarded two assistance agreements to the
        University of Maryland for nonpoint source data analysis. The university took State
        implementation data and entered it into a computer watershed model; once input, the
        recipient produced reports showing the costs versus the results of State implementation
        efforts.

        Outreach: EPA funded projects in support of the Clean Water Act and Chesapeake 2000
        Agreement goal to implement outreach programs for public information and to increase
        awareness. Outreach efforts are aimed at updating residents within the watershed on the
        quality of the Bay as well as how residents’ actions can affect the Bay. Activities
        included organizing media events, producing e-newsletters for the Bay program’s
        Website, disseminating fact sheets and brochures, and producing The Bay Journal.

        Chesapeake Bay Executive Council Support: One grant provided staff to Council
        subcommittees to carry out functions per Clean Water Act Section 117(b)(2)(B). The Act
        directs EPA to provide support to the Chesapeake Executive Council by implementing
        and coordinating support services and developing and making available information
        pertaining to the environmental quality and living resources of the Chesapeake Bay
        ecosystem. The other grant was to analyze Federal farm programs and provide
        recommendations to the Council regarding potential changes that could be applied in the
        Bay restoration effort, and determine whether reauthorization of Federal farm programs
        could be used to authorize additional funding for agricultural conservation practices.



                                                   6

       Monitoring: These grants provided data analysis and monitoring information to EPA’s
       partners and stakeholders on the status and trends of Bay water quality. Monitoring
       grants enable grantees to collect water samples for analysis to measure the nutrient and
       sediment levels. EPA grantees monitored water quality in the tributaries, shallow waters,
       and the Bay main stem to measure water quality improvement progress.

       New Practices Research: Some grants funded research into new best management
       practices. One grantee received a grant to develop ideas to achieve low-cost reductions at
       wastewater treatment facilities and encourage other systems to implement similar
       strategies, and produced several suggestions that signatory States used. The other three
       project grants looked at ammonia emissions from agricultural and urban sources, to
       develop best management practices to reduce emissions. Ammonia contributes nitrogen
       to the Bay, and data collected led to a best management practice that reduces the amount
       of ammonia deposited in water and on land.

       Protecting and Restoring Fish and Living Organisms: EPA funded grants to install
       fish passages. Barriers such as large drains, dikes, water diversions, and dams prevent
       fish from migrating, keeping fish from important habitats for spawning and growing. As
       a result, several fish populations have died off or have been greatly reduced in number.
       Fish passage projects improve the ability of fish to swim upstream, past these barriers.
       Protecting and restoring living resources is a goal of the Chesapeake 2000 Agreement
       and a requirement of the Clean Water Act Section 117.

       Coordination: The grant provided for the examination of local ordinances and
       comparison of those ordinances to model ordinances to see how local regulations can be
       revised. Recognizing that growth in the Bay area will continue, the grant is designed to
       support low impact development to minimize the amount of stormwater runoff.

Conclusion

We determined that EPA effectively awarded grant funds toward projects that should maximize
environmental benefits in the Chesapeake Bay. The State implementation grants and project
grants we reviewed contributed toward EPA’s Clean Water Act goals or one or more of the goals
of the Chesapeake 2000 Agreement. EPA funded activities, such as implementation and
outreach, which contributed to localized load reductions. Monitoring the effects of those
activities allowed EPA to measure progress toward achieving improved water quality. Modeling
estimates long-term effects and demonstrates what reductions and results EPA and its partners
should expect from future efforts. Lastly, EPA awarded other project grants that increased
citizens’ awareness of how their practices at home can impact the Bay, developed new best
management practices, and helped to restore the Bay’s living resources. While EPA and its
partners agree that there is much work to be done, the grants we reviewed should provide
environmental benefits that contribute to restoring the Bay.

EPA’s Chesapeake Bay Program Office concurred with the conclusion in our draft report. The
office’s response is in Appendix C.



                                               7

                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                  POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                 BENEFITS (in $000s)

                                                                                                      Planned
    Rec.    Page                                                                                     Completion   Claimed    Agreed To
    No.      No.                         Subject                       Status1     Action Official      Date      Amount      Amount

                                   No recommendations




1    O = recommendation is open with agreed-to corrective actions pending;

     C = recommendation is closed with all agreed-to actions completed;

     U = recommendation is undecided with resolution efforts in progress 





                                                                              8

                                                                                      Appendix A

                            Scope and Methodology
We conducted this audit in accordance with Government Auditing Standards, issued by the
Comptroller General of the United States. We obtained an understanding of the program through
analysis of the laws, regulations, and guidance pertaining to grants awarded through the
Chesapeake Bay Program and an evaluation of internal controls over them. Our understanding
of the internal controls was gained through the performance of the procedures previously
outlined. We did not test the validity or reliability of the data in the Integrated Grants
Management System because the data was not significant to our findings. We performed our
audit field work from February to April 2006.

We visited EPA Region 3 in Philadelphia, Pennsylvania, and the Chesapeake Bay Program
Office in Annapolis, Maryland. We interviewed the Chesapeake Bay Program Director and
Deputy Director, Associate Directors, and project officers. We sought to determine whether
EPA effectively targeted funds toward grant projects that maximize environmental benefits
based on the goals of the Clean Water Act and the Chesapeake 2000 Agreement. We did not
assess State decisions regarding the type or location of best management practices they
implemented. We also did not review proposed grant projects that EPA elected not to fund.
Finally, we did not assess the adequacy of the Chesapeake 2000 Agreement.

EPA awarded about half of the $15 million in grant funding each year to three States: Maryland,
Pennsylvania, and Virginia. We examined all of these State implementation grants for fiscal
years 2003, 2004, and 2005. We reviewed the files and visited the Maryland Department of
Natural Resources in Annapolis, Maryland; the Pennsylvania Department of Environmental
Protection in Harrisburg, Pennsylvania; and the Virginia Department of Conservation and
Recreation in Richmond, Virginia. We interviewed the State managers and grants management
staff. We visited three sites that implemented best management practices funded through EPA
State implementation grants: a “green” roof site in Richmond, Virginia; a dairy farm in Lebanon
County, Pennsylvania; and riparian forest buffers in Frederick and Monocacy, Maryland.

We extracted all Chesapeake Bay project grants for fiscal years 2003, 2004, and 2005 from
EPA’s Integrated Grants Management System. From that list, we selected a random sample for
review. Out of the 110 grants awarded during that period totaling $20.9 million, we reviewed
the project officer files for 23 project grants totaling $4.7 million while visiting the Chesapeake
Bay Program Office. We grouped the project grants into seven general categories. We did not
observe any deficiencies in the project officer files, and the workplans and deliverables
confirmed the information the project officers provided during the interviews.

Government Auditing Standards require auditors to design the audit to detect violations of legal
and regulatory requirements, contract provisions, or grant agreements, including fraud and abuse.
The team did not detect any information or documentation that appeared to be fraudulent in
nature or suggested a pattern of fraud.

There were no pertinent prior audit reports on the issues that we reviewed.


                                                 9

                                                                                                                                                                                Appendix B

  Detailed Logic Model on Chesapeake Bay Program Use of Assistance Agreements
Inputs                 Activities                         Outputs                            Customers	              Short-Term               Intermediate        Long-Term
                                                                                                                     Outcomes                 Outcomes            Outcomes
Congressional          Implement and coordinate           Best management practices          State
appropriation to       science, research, modeling,       developed and implemented          governments:                                     Reduction of        Bay waters and tributaries
                                                                                                                     Changes to
EPA: about $23         and monitoring                                                        MD, PA, VA,                                      annual nitrogen     removed from impaired
                                                                                                                     fertilizer products
million per year                                          Strategies for pollution           NY, DE, WV,                                      loads by 110        waters list
                                                                                                                     produced and
                       Collect, analyze, and              reduction developed                and District of                                  million pounds
                                                                                                                     applied within the                           The Bay’s living resources
Funding from 	         manage environmental data                                             Columbia 	                                       or 39 percent
                                                                                                                     Bay watershed                                (crabs, oysters, etc.) are
other Federal                                             Strategies for restoring
Agencies	              Develop and distribute             ecosystem functions                Other Federal                                    Reduction of        restored and protected
                                                                                                                     Site-specific load
                       information on                                                        agencies                                         annual              Habitats and natural
                                                                                                                     reductions
Funding from           environmental quality              Ecosystem-based fisheries                                                           phosphorus          resources are protected and
States                                                    management plans                   Local                                            loads by 6.3        restored
                                                                                                                     Federal, State,
                       Track implementation                                                  governments                                      million pounds
                                                                                                                     and local                                    Water quality to support
Chesapeake Bay         activities                         Modeling and monitoring                                                             or 33 percent
                                                                                                                     government                                   aquatic living resources and
Program Office                                            data collected and                 Public living in
                                                                                                                     priorities better                            human health is achieved
staff                  Evaluate restoration               submitted to EPA                   Bay watershed                                    Reduction of
                                                                                                                     targeted                                     and maintained
                       progress                                                                                                               annual
Staff from other                                          Reports and publications on        Businesses in Bay                                sediment loads      Sound land use practices
                                                                                                                     Increased public
Federal Agencies       Help Bay partners develop          Bay health and restoration         that depend on                                   by 890,000          that promote good water
                                                                                                                     awareness of how
                       and implement specific             progress provided to the           crabs, oysters,                                  tons or             quality, maintain reduced
                                                                                                                     their daily actions
State personnel:       action plans                       public                             etc.	                                            18 percent          pollutant loadings, and
                                                                                                                     affect the Bay
MD, PA, VA,                                                                                                                                                       preserve aquatic living
NY, DE, WV,            Coordinate actions of EPA          Research resulting in              Farmers and 	                                    More acres of       resources are implemented
                                                                                                                     Waterway access
and District of        with other partners                improved information and           landowners                                       forest buffers,
                                                                                                                     improvements for
Columbia                                                  management actions                                                                  wetlands, and       Bay partners and the public
                                                                                                                     fish to migrate,
                       Implement public outreach                                                                                              sensitive lands     continue initiatives to
                                                                                                                     spawn, and grow
Clean Water Act        programs                           Progress and Final Reports                                                          preserved           maintain Bay quality

Chesapeake 2000 	      Support Chesapeake 2000            Executive Council meetings                                                                              Improved recreational use
Agreement 	            Agreement goals: living                                                                                                                    of the Bay and its
                       resources, vital habitat,                                                                                                                  tributaries
                                                          Final reports and data
State Tributary        water quality, sound land          submitted to EPA                                                                                        Improved businesses and
Strategies             use, and stewardship and                                                                                                                   local economies
                       community engagement               Fish passages installed


          Ï                       Ï	                                Ï                             Ï                      Ï                       Ï                         Ï

                                                                                        Externalities
         Changes in Federal and State funding levels, population increases, land development, weather, and introduction of non-native predatory aquatic species

Source: EPA Office of Inspector General analysis

                                                                                                10
                                                                                          Appendix C

                                   Agency Response




DATE:	          August 24, 2006

SUBJECT:	       Draft Audit Report
                EPA Grants Supported Restoring the Chesapeake Bay
                Assignment No. 2005-01688

FROM: 	         Rebecca Hanmer
                Director, Chesapeake Bay Program Office

TO: 	           Janet Kasper
                Acting Director, Assistance Agreement Audits


Thank you for the opportunity to review your Draft Audit Report, No. 2005-01688.

We concur with the conclusion in this review of the Chesapeake Bay Program’s assistance agreements.
As you know, we devote important resources and oversight to this effort, and we are especially pleased to
read your conclusion: “We determined that EPA effectively awarded grant funds toward projects that
should maximize environmental benefits in the Chesapeake Bay.” (Draft Report, p. 7).

Thank you again for the opportunity to review and comment on this Draft Report. We look forward to
receiving the final copy.




                                                   11 

                                                                            Appendix D


                                    Distribution

Office of the Administrator
Regional Administrator, Region 3
Director, Chesapeake Bay Program Office
Deputy Director, Chesapeake Bay Program Office
Associate Director, Chesapeake Bay Program Office
Audit Followup Official
Audit Followup Coordinator
Audit Followup Coordinator, Office of Water
Regional Audit Followup Coordinator, Region 3
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Acting Inspector General




                                             12 

